Sama
I

C@OCKLE

f E-Mail Address:
Le ga | Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-839
KENNETH GREENWAY,
Petitioner,
v.
SOUTHERN HEALTH PARTNERS, INC., et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF SOUTHERN
HEALTH PARTNERS, INC. AND ALYSSA ARMENTI IN OPPOSITION TO PETITION FOR
WRIT OF CERTIORARI in the above entitled case complies with the typeface requirement of
Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and
10 point for the footnotes, and this brief contains 7093 words, excluding the parts that are

exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 21st day of January, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths

GENERAL NOTARY-State of Nebraska ) y & Chl
: RENEE J. GOSS g .
i My Comm. Exp. September 5, 2023 *

Affiant 40571

       

 

Notary Public
